                                           Denali Commission
                                         510 L Street, Suite 410
                                         Anchorage, AK 99501

                                               907.271.1414 tel
                                              907.271.1415 fax
                                          888.480.4321 toll free
                                                www.denali.gov




                                         FINAL REPORT
                                      FOR PUBLIC RELEASE




SEMIANNUAL REPORT TO THE CONGRESS


         FY 2013 – SECOND HALF



    OFFICE OF THE INSPECTOR GENERAL

          DENALI COMMISSION
Denali IG semiannual report                     1                                    October 2013




                                                                                 FINAL REPORT
                                                                              FOR PUBLIC RELEASE




                     DENALI COMMISSION OFFICE OF INSPECTOR GENERAL

                                     SEMIANNUAL REPORT
                                            FOR
                                   SECOND HALF OF FY 2013



Section 5 of the Inspector General Act requires the Office of Inspector General (OIG) at the
Denali Commission to prepare a semiannual report. The discussion below constitutes this report
for the second half of FY 2013.

Parts of the Government are currently “shut down” for an undetermined period. However, due to
a nuance of appropriation law, Denali remains open for business. Per the Inspector General Act,
OIG’s semiannual report remains due at this time.


                           THE RED HERRING OF “REAUTHORIZATION”

The Denali Commission (Denali) is a small federal agency that makes grants to build public
works in “bush” Alaska.1 The late Senator Stevens created it to channel funding to remote
settlements that otherwise would not receive congressional support.

A year ago, Alaska’s sole member of the House (Congressman Don Young) introduced
H.R. 6478 (which the 112th Congress did not enact). The bill’s provision for “Reauthorization”
suggested that Congress should give Denali perpetual life (and presumably perpetual funding):

       There are authorized to be appropriated to the Commission such sums as are
       necessary to carry out this title, in accordance with the purposes of this title, for
       fiscal year 2013 and each fiscal year thereafter.2

This language perpetuates the popular misconception that the Denali Commission’s
“authorization” to operate expired some years back and now needs to be renewed, or the agency
will become extinct (or at least on the list of “endangered” agencies).

But GAO busted this myth in a 2012 ruling concerning another agency. The published decision3
of the Comptroller General carefully explained the importance of distinguishing between
Congress’ initial authorization of a program itself and Congress’ periodic authorization of the
appropriations to fund the program. The decision reviewed enabling acts with the same type of
language — that is, authorization of appropriations for specific blocks of five years — that
Congress has included in Denali own “reauthorizations” from time to time.
Denali IG semiannual report                      2                                       October 2013




GAO serves as Congress’ “booth referee” for such calls, and we quote directly from GAO’s
published ruling:

       There is no general requirement, either constitutional or statutory, that an
       appropriation act be preceded by a specific authorization of appropriation. . .

       [T]he enabling statutes establishing the . . . programs provide legal authority for the
       agency to carry out these programs despite the absence of authorizations of
       appropriations. Where an agency has statutory authority or a statutory requirement
       to carry out a particular activity, the presence or absence of an authorization of
       appropriations is not determinative. Because the program authority in the enabling
       statutes has not expired, and [the agency] has an appropriation that is available to
       cover the costs of these programs, we conclude that [the agency] has adequate
       authority to continue both programs.

The Comptroller General thus reassures us that agencies like Denali aren’t going anywhere until
Congress either repeals their enabling acts or stops sending the “appropriations” (versus mere
“authorizations”) to fund them.


                                 THE CASE AGAINST CONTINUING
                                   THE DENALI COMMISSION

The Inspector General Act directs that OIG’s semiannual report advise Congress as to ways that
Denali’s funding can be “put to better use.”4

Congress’ 15-year experiment with the Denali Commission has
run its course, and OIG now recommends that Congress put its                        EXHIBIT 1
money elsewhere.                                                                DENALI’S TYPICAL
                                                                                 FUNDING CHAIN

Despite Denali protests to the contrary, OIG’s position is
neither new nor a surprise. As detailed below, OMB, CBO, and                Congressional appropriation
OIG have over the years questioned the need for Denali as a                             ↓
                                                                             Cabinet-level department
pass-through layer and a “regional” commission that serves                              ↓
only the single state of Alaska.5                                              Denali Commission
                                                                                        ↓
                                                                                  Major grantee
In fact, OIG’s recent reports have recommended that Congress                            ↓
sunset Denali as a federal agency and convert it into a                            Sub-awardee
nonfederal entity under local law.6 Congress would then                                 ↓
                                                                             Project management firm
transfer Denali’s assets into state ownership (like the Alaska                          ↓
Railroad7) or into rebirth as a nonprofit corporation (an NGO                       Contractors
like the Alaska Native Tribal Health Consortium8).                                      ↓
                                                                                 Local employees

Denali’s typical funding chain is shown in Exhibit 1.
Denali IG semiannual report                          3                                                      October 2013




                                                                                      EXHIBIT 2
       Denali’s problematic paradigm:                        SMALL SETTLEMENTS WITH DENALI-FUNDED
       millions for “micro-settlements”                          POWERHOUSES AND TANK FARMS

                                                                                               “PERSONS           DENALI
                                                                                       HOUSE-
Denali measures its success in terms of how              SETTLEMENT
                                                                              POP.
                                                                                       HOLDS
                                                                                                   IN            SPENDING
                                                                             (2012)            POVERTY”            THRU
many buildings it can complete in how many                                              (2010)
                                                                                                 (2011)         AUG. 9, 2013
places,9 before the money finally runs out.              Nikolski                16        13           8         $ 3,164,057
                                                         Red Devil               19        12           2             675,000

However, one of Denali’s most difficult and              Alatna
                                                         Lime Village
                                                                                 27
                                                                                 27
                                                                                           12
                                                                                           11
                                                                                                        0
                                                                                                        7
                                                                                                                      544,667
                                                                                                                      420,162
uncomfortable issues has been the size of                Elfin Cove              39        13          10             652,201
                                                         False Pass              39        15           0           1,141,761
community that warrants public support                   Karluk                  41        12          17             745,730
(versus self-support). While public lore may             Pedro Bay               42        19           0           1,867,116
                                                         Stony River             42        20          33           1,700,000
abstractly decry government projects in the              Nelson Lagoon           46        22          10           1,972,044
middle of “nowhere,” the choices are very real           Igiugig                 52        16          13           2,446,667
                                                         Takotna                 53        22          28           3,600,000
for families that must go without what most of           Clarks Point            59        24          18           1,102,981
America takes for granted in the 21st Century.           Atka                    64        24           5           6,100,533
                                                         Stevens Village         67        26          31           1,600,223
                                                         Chalkyitsik             68        24          16             231,845
Denali’s records show that it has spent                  Chenega Bay             68        31           8           1,187,165
                                                         Pilot Point             68        27           2           2,834,442
$200 million to build facilities in 81 places that       Pelican                 82        41           3           7,208,051
have less than 250 people. Population records            Sleetmute               84        36          15          (unknown)
                                                         Anvik                   85        33          30             540,178
from the State show that these 81 places have a          Akhiok                  87        19          27             434,811
total of less than 10,000 people (that is, less          Eagle                   87        41          12           3,109,387
                                                         Hughes                  87        31          12           1,851,978
than 2% of Alaska’s population). Or, to put it           Levelock                88        27          31             217,828
another way, the $200 million served around              Chignik                 91        41           8           5,925,109
                                                         Larsen Bay              93        34           0           3,011,287
3,500 households. And state records estimate             Nikolai                 94        37          51           1,068,884
that these 81 places have a total of just under          Koyukuk                 95        42          63           4,568,571
                                                         Whitestone              99        22          17           2,071,584
2,200 “persons in poverty.”                              Allakaket              106        44          26           1,544,593
                                                         Egegik                 106        29           3             472,410
                                                         Perryville             112        38          46             659,305
The agency’s original strategic plan idealisti-          Diomede                121        38          84           3,538,963
cally aspired that “[a]ll Alaska, no matter how          Port Heiden            123        35           4           1,438,172
                                                         Chitina                139        52          19           3,295,870
isolated, will have the physical infrastructure          Deering                142        44          10           3,832,977
necessary to protect health and safety and to            Tenakee Springs        152        72          20           2,989,483
                                                         Port Graham            168        79          35             894,090
support self-sustaining economic develop-                Kokhanok               170        52          39           2,420,246
ment.”10                                                 Golovin
                                                         Arctic Village
                                                                                173
                                                                                178
                                                                                           49
                                                                                           65
                                                                                                       14
                                                                                                       15
                                                                                                                    3,280,290
                                                                                                                    3,619,114
                                                         Ouzinkie               178        56          68             623,579
Denali’s paradigm in practice has been to build          Venetie
                                                         Ruby
                                                                                181
                                                                                185
                                                                                           61
                                                                                           62
                                                                                                       45
                                                                                                       65
                                                                                                                      224,815
                                                                                                                    5,772,560
three basic facilities in every “bush” settle-           Kaltag                 186        70          47           3,693,732
                                                         White Mountain         188        65          53           2,398,558
ment: (1) a powerhouse, (2) a tank farm, and             Port Lions             201        77          24             853,980
(3) a medical clinic. Denali inherited lists of          Aleknagik              204        71          74             338,658
                                                         Nunam Iqua             206        43          58             596,737
settlements that wanted such facilities, and the         Old Harbor             206        84          50           1,099,690
agency has responded by “wholesaling” its                Mekoryuk               210        70          49           5,419,149
                                                         Koliganek              223        55          21           1,059,765
appropriations to several major grantees that            Tanana                 233       100          31           2,267,859
do the actual construction.                              Seldovia               242       121          24           2,983,419
                                                              Totals          6,242     2,279        1,401      $ 117,312,276

                                                                Population data per State of Alaska community database
                                                                            at http://commerce.alaska.gov
Denali IG semiannual report                      4                                                       October 2013




Exhibits 2, 3, and 4 list tiny settlements                                        EXHIBIT 3
( < 250 pop.) that have received facilities as                    SMALL SETTLEMENTS WITH
Denali has continued to work its way                            DENALI-FUNDED MEDICAL CLINICS
through the long lists of local requests. All
                                                                                            “PERSONS           DENALI
of this information was obtained from                                     POP.
                                                                                    HOUSE-
                                                                                                IN            SPENDING
                                                     SETTLEMENT                     HOLDS
Denali’s public website (www.denali.gov)                                 (2012)
                                                                                     (2010)
                                                                                            POVERTY”            THRU
                                                                                              (2011)         AUG. 7, 2013
and the State’s online public database of
                                                     Alatna                  27         12           0            $519,000
settlement demographics.                             False Pass              39         15           0             101,158
                                                     Igiugig                 52         16          13           1,197,750
But a “free” powerhouse, tank farm, or clinic        Clark’s Point           59         24          18           1,491,044
isn’t really “free” if a tiny place can’t fund       Stevens Village         67         26          31             135,433
                                                     Chalkyitsik             68         24          16           1,724,080
the fuel, upkeep, and staffing to make use           Pilot Point             68                                  1,640,514
                                                                                        27           2
of it. Denali assumes that the community             Kasaan                  69         23           0           1,780,338
will receive other government subsidies in           Shageluk                69         36          13             670,399
the decades ahead to operate what Denali             Twin Hills              83         29          23           1,104,056
                                                     Sleetmute               84         36          15             785,369
builds today.
                                                     Akhiok                  87         19          27           1,522,652
                                                     Beaver                  87         36          28             546,963
                                                     Hughes                  87         31          12           1,485,700
         The persistent question of                  Levelock                88         27          31           1,493,719
          Denali’s “value added”                     Klukwan                 93         41           2             287,237
                                                     Chistochina             95         36          18           1,492,659
                                                     Egegik                 106         29           3             246,543
Beneficiaries sometimes challenge why their          Perryville             112         38          46           3,340,128
                                                     Ekwok                  118         37          35           1,833,405
funding from Congress needs to be reduced            Tetlin                 118         43          11             979,579
by the administrative costs of running the           Chuathbaluk            138         36          24             633,268
Denali Commission. While beneficiaries               Chitina                139         52          19           1,046,620
understand that they must please Denali with         Kobuk                  141         36          59           1,615,383
                                                     Deering                142         44          10             786,424
simple reporting to get their money, those
                                                     Nondalton              169         57         104           2,263,084
complaining don’t perceive that they are             Kokhanok               170         52          39           1,414,932
getting significant services.                        Tyonek                 171         70          74             444,942
                                                     Golovin                173         49          14           1,150,157
Their question is a good one that OIG hasn’t         Newhalen               178         50          28           3,586,283
                                                     Grayling               178         55          52             792,195
been able to satisfactorily answer in our            Ouzinkie               178                                  1,606,934
                                                                                        56          68
years of studying the little agency.                 Coffman Cove           181         89           6             758,989
                                                     Holy Cross             181         64          63             411,200
For instance, for powerhouses and tank               Kaltag                 186         70          47           2,107,646
                                                     White Mountain         188         65          53           1,157,271
farms, Denali receives transfers from the
                                                     Port Lions             201         77          24           1,638,212
USDA Rural Utilities Service (RUS)11 and             Aleknagik              204         71          74           1,717,888
then sends the money on to a state agency12          Nunam Iqua             206         43          58             804,430
and a large utility cooperative.13 Both of           Old Harbor             206         84          50           1,993,986
these recipients are far more technically            Mekoryuk               210         70          49             847,399
                                                     Gakona                 214                                  1,360,095
sophisticated than Denali’s tiny staff               Koliganek              223
                                                                                        86           9
                                                                                                                 2,460,898
                                                                                        55          21
(≈ 15 FTEs). Given the small number of               Minto                  223         65          43           1,194,450
projects involved,14 both are capable of                  Totals          5,876      2,001       1,332        $56,170,412
directly dealing with RUS without Denali as
the middleman.                                              Population data per State of Alaska community database
                                                                        at http://commerce.alaska.gov
Denali IG semiannual report                      5                                                       October 2013




A further example of this fragmented approach is the funding that Denali sends the State for the
“emerging energy technology fund,” a creation of the Alaska Legislature.15 Though Denali has
one seat on the State’s panel that scores the grant applications, this use already exists as a state
program independently of Denali.

When Congress sends Denali the funding to
                                                                                   EXHIBIT 4
build bush clinics, the appropriation flows
to Denali through the U.S. Department of                          SMALL SETTLEMENTS WITH
                                                               DENALI-FUNDED ROADS AND DOCKS
Health and Human Services. Denali usually
sends it on to (1) the state health depart-                                                 “PERSONS            DENALI
                                                                                    HOUSE-
ment, (2) regional health corporations that           SETTLEMENT
                                                                           POP.
                                                                                    HOLDS
                                                                                                IN             SPENDING
                                                                          (2012)            POVERTY”             THRU
operate hospitals, or (3) the Alaska Native                                          (2010)
                                                                                              (2011)          AUG. 9, 2013
Tribal Health Consortium (a nonprofit
                                                     Elfin Cove               39         13         10
created by Congress).16 Again, these recip-          False Pass               39         15          0
                                                                                                                   $263,046
                                                                                                                  1,912,803
ients are far more technically sophisticated         Igiugig                  52         16         13              466,107
than Denali’s tiny staff. And, again, these          Takotna                  53         22         28              272,910
recipients are quite capable of directly             Atka                     64         24          5            1,123,118
                                                     Port Alexander           66         22          6              767,519
dealing with the cabinet-level funder with-
                                                     Stevens Village          67         26         31            1,161,514
out Denali as a broker.                              Chenega Bay              68         31          8            1,971,566
                                                     Pilot Point              68         27          2              165,000
Congress has sometimes funded a training             Northway                 77         27         37              500,000
program at Denali, who has usually sent this         Pelican                  82         41          3            1,044,962
                                                     Tatitlek                 83         36         12              367,000
money on to the state labor department or            Akhiok                   87         19         27              208,794
the University of Alaska.17 Once again, the          Eagle                    87         41         12            1,167,083
State is capable of directly receiving this          Pitkas Point            102         31         48              434,395
money without Denali as an intermediary.             Perryville              112         38         46              238,332
                                                     Circle                  113         40         37              769,814
                                                     Manley Hot Sprgs        116         41         21            1,963,313
And sometimes Congress has funded a                  Diomede                 121         38         84              600,000
transportation program at Denali through             Gulkana                 122         36          0            1,800,000
the USDOT appropriation.18 The projects              Kobuk                   141         36         59              252,993
have then been selected by a board                   Nondalton               169         57        104              218,378
                                                     Kokhanok                170         52         39
appointed by Alaska’s governor, a board              Ouzinkie                178         56         68
                                                                                                                    264,285
                                                                                                                  1,000,000
that could directly be hosted by the State           Coffman Cove            181         89          6            1,764,028
rather than Denali. For half of the selected         Nunam Iqua              206         43         58            1,172,364
projects,19 Denali has sent its funding on to        Old Harbor              206         84         50            2,200,000
                                                     Cantwell                207        104         10              604,249
the State or another federal agency to do the
                                                     Mekoryuk                210         70         49              571,450
actual construction (such as the Corps of            Gakona                  214         86          9            1,648,032
Engineers or FHWA). This circular delivery           Seldovia                242        121         24              345,164
system signals a further question as to what              Totals           3,742      1,382        906         $ 27,238,219
Denali’s layer adds to the process.
                                                             Population data per State of Alaska community database
                                                                         at http://commerce.alaska.gov
Denali IG semiannual report                          6                                       October 2013




                                                                            EXHIBIT 5
      Displacement of nonfederal funders                          KEY QUESTIONS FROM
                                                              DENALI’S DECADE AND A BILLION
A state economist reported that Alaska ranks
first in the nation in its per capita receipt of
                                                         Are better clinic buildings resulting in better
federal grants, and fourth in federal contracts.20       health care?

However, a year ago Congress expanded                    Are Denali-provided power plants resulting in
Denali’s flexibility to tap funding from                 cheaper “bush” electricity?
nonfederal sources — such as the State,
                                                         Are Denali-provided tank farms resulting in
charitable foundations, and Alaska Native                cheaper “bush” fuel?
corporations.21 Though OIG’s reports have
recommended that Congress add this flexi-                Is training for construction projects resulting in
bility,22 Denali has so far made little progress         long-term careers?
in diversifying its funding beyond federal
                                                         Are Denali-provided facilities reducing —
sources.                                                 versus extending — the dependence on future
                                                         federal funding?
At this point, OIG recommends that Congress
no longer send Denali an annual “base appro-             Has Denali pioneered “silver bullet” solutions
priation.” This will give Denali an incentive to         applicable to other states?
leave the federal nest and chart its own course          Do projects function as capacity-building
as a non-federal entity.                                 “barn raisings” (versus mere short-term cash
                                                         infusions)?
This will also give the State of Alaska an
incentive to find and fund its own solutions for         Has Denali leveraged rural schools as the
                                                         major local facility?
the residents of “bush” Alaska — as it should.
Alaska has an oil-based savings account whose            Has Denali effectively partnered with the
earnings help fund the state government.23               military as the state’s largest employer?
Alaska has no personal income tax and no state
sales tax.                                               Has Denali effectively leveraged federal single
                                                         audits as a grants monitoring tool?

In contrast to taxation, Alaska pays every               Has Denali strengthened regional hubs as an
resident an annual “dividend” that has so far            alternative to urban migration?
ranged up to $2,069.24 And this is significant to
Denali’s projects, since these dividend pay-             Has Denali pioneered interventions for
                                                         troubled projects (versus just adding money)?
ments are considered politically “untouchable”
as a potential match to Denali grants in even            Is Denali helping coastal communities benefit
the smallest of unincorporated settlements.              from the opening of new arctic shipping
OIG has written before that national support             routes?
for Denali might be more encouraged by
                                                         Have Denali projects preserved “priceless”
projects in “micro-settlements” that are per-            qualities of Alaska that are valued by the rest
ceived as local “barn-raisings,” rather than as          of the nation?
entitlements or seasonal cash injections.25                      _____________________
                                                            Reprinted from Denali OIG, Semiannual
                                                          Report to the Congress (May 2010), page 41.
Denali IG semiannual report                    7                                  October 2013


                                  THE CASE FOR CONTINUING
                                   THE DENALI COMMISSION

The strongest argument for continuing the agency occurred with little fanfare in the final weeks
of FY 2013. The CFO negotiated $6 million of interagency agreements in which Denali will sell
its expertise to four other federal agencies. And OMB’s documentation of this transferred
funding now shows it as an available resource, rather than mere brainstorming and good
intentions.26

The CFO’s eleventh-hour success in securing these transfers is consistent with both the Economy
Act and Denali’s expanded authority for diversified funding that Congress authorized a year
ago.27 It also shows that Denali can indeed find self-support — should Congress choose to
eliminate the disincentive of the annual “base appropriation” that Denali has learned to expect.


                                   THE LORE OF THE LAYER

Despite Denali protests to the contrary, OIG’s position is neither new nor a surprise. OMB,
CBO, and OIG have over the years questioned the need for Denali as a pass-through layer and a
“regional” commission that serves only the single state of Alaska.

A tedious dose of string quotations is the best way to show readers the longstanding debate over
Denali’s future.

Nine years ago

Nine years ago, two conditions caused OMB to rate Denali as merely “adequate” in the publicly-
reported PART evaluation:

       The program lacks adequate evaluations that assess program impact.

       [T]he program's activities are duplicative of other federal programs that address
       the same needs and provide the same types of assistance.28

Six years ago

Six years ago, OIG posed the following question in our Semiannual Report to the Congress:29

       The federal system is populated with many small, specialized agencies. Implicitly
       lurking in GAO [government-wide] discussions is the perennial issue of whether
       it would be more efficient and effective “governance” for any given task to be
       directly accomplished by a cabinet-level department. . .

       By the end of 2007, Congress will have funded its Denali Commission experiment
       with close to $1 billion. The omnipresent question thus looms as to what Alaskans
       have received through this experiment that they would otherwise have gone
       without. In other words, what outcomes made the commission more than a
       ceremonial layer?
Denali IG semiannual report                     8                                   October 2013




Four years ago

Four years ago, OMB issued its report of recommended “Terminations, Reductions, and
Savings.”30 Of the 57 “discretionary terminations” on OMB’s national list (page 2), three
specifically targeted the Denali Commission:

        Denali Access, Department of Transportation
        Denali Job Training, Department of Labor
        Denali Commission, Department of Health and Human Services

The report section entitled “Termination: Denali Access” (page 20) asserts OMB’s position as
follows:

       This program is duplicative of other highway formula funding that can be used
       for the same activities. Regional set asides such as this one are over and above
       formula allocations that allow States to set their own priorities and address local
       and regional needs.

And the report section entitled “Termination: Denali Job Training” (page 21) asserts OMB’s
position as follows:

       This narrow-purpose funding is redundant and unnecessary, and there is no
       evidence that Denali Commission training programs improve employment
       outcomes for participants. . .

       The Denali earmark is duplicative of funding that Alaska receives through other
       Federal workforce development programs. . .

       Furthermore, there is little accountability for job training activities funded
       through this earmark. Unlike other Department of Labor programs, the Denali
       Commission job training initiatives are not required to report on the employment
       outcomes of participants, so there is little information to determine whether these
       initiatives are producing positive results.

Also four years ago, the Congressional Budget Office (CBO)31 issued a report that explicitly
identifies elimination of the Denali Commission as an option for the reduction of federal
spending.32 CBO described the argument in support of this option as follows:

       The federal government provides annual funding to three regional development
       agencies: the Appalachian Regional Commission (ARC), the Denali Commission,
       and the Delta Regional Authority. . .

       The three agencies’ programs are intended, among other things, to create jobs,
       improve rural education and health care, develop utilities and other
       infrastructure, and provide job training. However, it is difficult to assess whether
       such outcomes can be attributed to those programs rather than to the work of
       other governmental and nongovernmental organizations or to market forces and
Denali IG semiannual report                      9                                    October 2013


       the effects of general economic conditions.

       An argument in favor of this option is that ending federal funding of the agencies
       would shift more responsibility for supporting local or regional development to
       the states and communities whose citizens benefit most from that development.
       Another rationale is that Appalachia, rural Alaska, and the Mississippi Delta are
       three among many needy regions in the United States, and they should not have a
       special claim to federal support. In that view, any federal development aid they do
       receive should come from nationwide programs, such as those overseen by the
       Economic Development Administration.

CBO above cites the argument for increased state and local contributions. This is a particularly
sensitive issue for Denali’s defenders since its federal funding hasn’t historically been leveraged
with state money to the degree found at other major regional commissions.33


Three years ago

Three years ago, OIG wrote the following in our Semiannual Report to the Congress: 34

       [T]he Denali Commission’s “most serious management and performance
       challenge” at the moment is to justify to Congress why the agency should
       continue to exist. . .

       Alaskans sometimes argue that facilities have been constructed that would still be
       missing but for Denali’s presence on the scene. While there is no question that
       Denali has built many buildings in many remote places, this also misses the real
       question.

       To draw upon the popular saw, whether a little agency is “doing things right”
       (correctly moving money) differs from the tougher question as to whether an
       agency is “doing the right things” (solving long-term public problems).

       The most critical public questions may be the dozen or so listed in Exhibit 5. . .

Exhibit 5 from that semiannual report is reprinted above at page 6.



                                            EPILOGUE

Reports that a federal experiment has run its course are difficult, and unpopular, ones for any
inspector general to write. The resistance of Denali’s beneficiaries to these reports, while
understandable, reflects the classic scenario of shooting the messenger, tackling the referee, or
berating the pathologist who has to convey the news one would prefer not to hear.
Denali IG semiannual report                                10                                          October 2013




The scenario is also reminiscent of Stephen Covey’s parable from the popular management
culture of the 1980s:

            [E]nvision a group of producers cutting their way through the jungle with
            machetes. They’re the producers, the problem solvers. They’re cutting through
            the undergrowth, clearing it out.

            The managers are behind them, sharpening their machetes, writing policy and
            procedure manuals, holding muscle development programs, bringing in improved
            technologies and setting up working schedules and compensation programs for
            machete wielders.

            The leader is the one who climbs the tallest tree, surveys the entire situation, and
            yells, “Wrong jungle!”

            But how do the busy, efficient producers and managers often respond? “Shut up!
            We’re making progress.” 35

In summary, OIG recommends that Congress eliminate Denali’s annual “base appropriation” as
the beginning of its needed transition into a locally-controlled, nonfederal status.


                                                                                MIKE MARSH
                                                                             INSPECTOR GENERAL
                                                                             DENALI COMMISSION




                                                          Notes
1
    See www.denali.gov.
2
    See section 6 of H.R. 6478 from the 112th Congress.
3
 See GAO, Social Security Administration—Work Incentives Planning and Assistance Program (WIPA) and Protection and
Advocacy for Beneficiaries of Social Security Program (PABSS), # B-323433 (Aug. 14, 2012), at www.gao.gov.
4
    See Inspector General Act sec. 5(a)(6).
5
  See Denali OIG, Semiannual Report to the Congress (May 2010), pages 35-37, 40-42, at www.oig.denali.gov; “Inspector
General’s Perspective on Management and Performance Challenges Facing the Denali Commission” in the 2009 Performance
and Accountability Report; OMB’s recommended “Terminations, Reductions, and Savings,” pages 2, 20, 21, 33 in the Budget
of the U.S. Government, Fiscal Year 2010 at www.gpo.gov; OMB, Program Assessment of Denali Commission, at
http://georgewbush-whitehouse.archives.gov/omb/expectmore/detail/10002338.2004.html (PART assessment from 2004); Con-
gressional Budget Office, Budget Options, vol. 2 (August 2009), sec. 450-5, page 106, at www.cbo.gov.
6
 See Denali OIG, Semiannual Report to the Congress (May 2012), page 5, and Denali OIG, Semiannual Report to the Congress
(May 2010), pages 9-10. Both are published at www.oig.denali.gov.
Denali IG semiannual report                                     11                                              October 2013




7
    See 45 USC 1203-1204.
8
 Congress initiated the Alaska Native Tribal Health Consortium in section 325 of P.L. 105-83, and the entity then organized as a
nonprofit corporation under Alaska law.
9
    See the Denali Commission’s Budget Justification for FY 2011, FY 2012, FY 2013, and FY 2014.
10
     Denali Commission Five Year Strategic Plan (2005-2009), page 3 (emphasis added).
11
   Per 7 USC 918a(a)(2), Congress authorizes the USDA Rural Utilities Service to transfer funding to the Denali Commission “to
acquire, construct, extend, upgrade, and otherwise improve energy generation, transmission, or distribution facilities” in
communities with high energy costs. While such transfers lie within USDA’s discretion, Denali has historically received them as
a substantial source of its funding.
12
     The Alaska Energy Authority. See www.akenergyauthority.org.

13
     The Alaska Village Electric Cooperative. See www.avec.org.
14
     See the Denali Commission’s Budget Justification for FY 2011, FY 2012, FY 2013, and FY 2014.
15
     See Alaska Statutes 42.45.375, which establishes the State’s “emerging energy technology fund.”
16
  Per Denali’s online public database of its projects, Denali’s grants for 346 out of its 376 “primary care” projects (92%) went to
these three types of grantees. See www.denali.gov (accessed June 22, 2013).
17
  Per Denali’s online public database of its projects, Denali’s grants for 274 out of its 309 training projects (89%) went to these
two grantees. See www.denali.gov (accessed June 22, 2013).
18
  Congress amended Denali’s enabling act to authorize transportation projects based upon selection by a panel of experts
appointed by the state’s governor. See Denali Commission Act sec. 309, as amended by P.L. 109-59 sec. 1960, 119 Stat. 1144,
1516.
19
  Per Denali’s online public database of its projects, Denali’s funding for 119 out of its 235 transportation projects (51%) was
sent on to these recipients. See www.denali.gov (accessed June 22, 2013).
20
   See Neal Fried, “Federal Spending in Alaska,” Alaska Economic Trends (Feb. 2012), pages 4-8, available online at http://
labor.state.ak.us/trends/feb12.pdf.
21
     See section 1520 of P.L. 112-141.
22
  See Denali OIG, Semiannual Report to the Congress (May 2012), pages 1-2, 5-7, and Denali OIG, Semiannual Report to the
Congress (Nov. 2011), page 17. Both are published at www.oig.denali.gov.
23
     The Alaska Permanent Fund — see www.apfc.org.
24
     See http://pfd.alaska.gov/DivisionInfo/SummaryApplicationsPayments.
25
     See Denali OIG, Semiannual Report to the Congress (May 2007), page 6, at www.oig.denali.gov.
26
   OMB approved Denali’s final SF 132 apportionment for FY 2013, which shows $6,650,000 in spending authority from
anticipated collections and reimbursements.
27
     See section 1520 of P.L. 112-141.
28
  OMB, Program Assessment of Denali Commission, at http://georgewbush-whitehouse.archives.gov/omb/expectmore/detail/
10002338.2004.html (PART assessment from 2004).
29
     See Denali OIG, Semiannual Report to the Congress (Nov. 2007), pages 17-18, at www.oig.denali.gov.
30
  See “Terminations, Reductions, and Savings,” (May 11, 2009), pages 2, 20, 21, 33 in Budget of the U.S. Government, Fiscal
Year 2010 at www.gpo.gov.
Denali IG semiannual report                                    12                                             October 2013




31
  The Congressional Budget Office (CBO) is the professional staff agency in Congress that advises the body on budgetary
options.
32
     See Congressional Budget Office, Budget Options, vol. 2 (August 2009), sec. 450-5, page 106 at www.cbo.gov.
33
     Appalachian Regional Commission and Delta Regional Authority.
34
     See Denali OIG, Semiannual Report to the Congress (May 2010), pages 35, 42, at www.oig.denali.gov.
35
     See Stephen Covey, The Seven Habits of Highly Effective People (New York: Simon and Schuster, 1989), page 101.
